<html>
<title> - FULL COMMITTEE MARKUP OF H.R. 3854: THE SMALL BUSINESS FINANCING AND INVESTMENT ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                        FULL COMMITTEE MARKUP OF
                     H.R. 3854: THE SMALL BUSINESS
                  FINANCING AND INVESTMENT ACT OF 2009

=======================================================================

                                HEARING

                               before the


                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                            OCTOBER 21, 2009

                               __________

         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


            Small Business Committee Document Number 111-052
Available via the GPO Website: http://www.access.gpo.gov/congress/house







                  U.S. GOVERNMENT PRINTING OFFICE
52-892 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001











                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman

                          DENNIS MOORE, Kansas

                      HEATH SHULER, North Carolina

                     KATHY DAHLKEMPER, Pennsylvania

                         KURT SCHRADER, Oregon

                        ANN KIRKPATRICK, Arizona

                          GLENN NYE, Virginia

                         MICHAEL MICHAUD, Maine

                         MELISSA BEAN, Illinois

                         DAN LIPINSKI, Illinois

                      JASON ALTMIRE, Pennsylvania

                        YVETTE CLARKE, New York

                        BRAD ELLSWORTH, Indiana

                        JOE SESTAK, Pennsylvania

                         BOBBY BRIGHT, Alabama

                        PARKER GRIFFITH, Alabama

                      DEBORAH HALVORSON, Illinois

                  SAM GRAVES, Missouri, Ranking Member

                      ROSCOE G. BARTLETT, Maryland

                         W. TODD AKIN, Missouri

                            STEVE KING, Iowa

                     LYNN A. WESTMORELAND, Georgia

                          LOUIE GOHMERT, Texas

                         MARY FALLIN, Oklahoma

                         VERN BUCHANAN, Florida

                      BLAINE LUETKEMEYER, Missouri

                         AARON SCHOCK, Illinois

                      GLENN THOMPSON, Pennsylvania

                         MIKE COFFMAN, Colorado

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

                  Karen Haas, Minority Staff Director

        .........................................................

                                  (ii)









                         STANDING SUBCOMMITTEES

                                 ______

               Subcommittee on Contracting and Technology

                     GLENN NYE, Virginia, Chairman


YVETTE CLARKE, New York              AARON SCHOCK, Illinois, Ranking
BRAD ELLSWORTH, Indiana              ROSCOE BARTLETT, Maryland
KURT SCHRADER, Oregon                W. TODD AKIN, Missouri
DEBORAH HALVORSON, Illinois          MARY FALLIN, Oklahoma
MELISSA BEAN, Illinois               GLENN THOMPSON, Pennsylvania
JOE SESTAK, Pennsylvania
PARKER GRIFFITH, Alabama

                                 ______

                    Subcommittee on Finance and Tax

                    KURT SCHRADER, Oregon, Chairman


DENNIS MOORE, Kansas                 VERN BUCHANAN, Florida, Ranking
ANN KIRKPATRICK, Arizona             STEVE KING, Iowa
MELISSA BEAN, Illinois               W. TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             BLAINE LUETKEMEYER, Missouri
DEBORAH HALVORSON, Illinois          MIKE COFFMAN, Colorado
GLENN NYE, Virginia
MICHAEL MICHAUD, Maine

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, Pennsylvania, Chairman


HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma, Ranking
BRAD ELLSWORTH, Indiana              LOUIE GOHMERT, Texas
PARKER GRIFFITH, Alabama

                                 (iii)








               Subcommittee on Regulations and Healthcare

               KATHY DAHLKEMPER, Pennsylvania, Chairwoman


DAN LIPINSKI, Illinois               LYNN WESTMORELAND, Georgia, 
PARKER GRIFFITH, Alabama             Ranking
MELISSA BEAN, Illinois               STEVE KING, Iowa
JASON ALTMIRE, Pennsylvania          VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             GLENN THOMPSON, Pennsylvania
BOBBY BRIGHT, Alabama                MIKE COFFMAN, Colorado

                                 ______

     Subcommittee on Rural Development, Entrepreneurship and Trade

                 HEATH SHULER, North Carolina, Chairman


MICHAEL MICHAUD, Maine               BLAINE LUETKEMEYER, Missouri, 
BOBBY BRIGHT, Alabama                Ranking
KATHY DAHLKEMPER, Pennsylvania       STEVE KING, Iowa
ANN KIRKPATRICK, Arizona             AARON SCHOCK, Illinois
YVETTE CLARKE, New York              GLENN THOMPSON, Pennsylvania

                                  (iv)






                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M..........................................     1
Graves, Hon. Sam.................................................     2

                                APPENDIX


Prepared Statements:
Graves, Hon. Sam.................................................     9

Reviewed Bill:
H.R. 3854: "The Small Business Financing and Investment Act of 
  2009"..........................................................    11

Statements for the Record:
Dahlkemper, Hon. Kathy...........................................   197
Ellsworth, Hon. Brad.............................................   202

                                  (v)


 
                        FULL COMMITTEE MARKUP OF
                     H.R. 3854: THE SMALL BUSINESS
                  FINANCING AND INVESTMENT ACT OF 2009

                              ----------                              


                      Wednesday, October 21, 2009

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia Velazquez 
[chairman of the Committee] presiding.
    Present: Representatives Velazquez, Dahlkemper, Schrader, 
Kirkpatrick, Michaud, Altmire, Clarke, Ellsworth, Bright, 
Griffith, Halvorson, Graves, Westmoreland, Fallin, Buchanan, 
Luetkemeyer, Schock and Coffman.
    Chairwoman Velazquez. I am pleased to call this morning's 
markup to order.
    Today we will consider legislation to reauthorize and 
enhance the SBA Access to Capital Programs. We often refer to 
small firms as the engine of our economy. After all, small 
companies create more new jobs and drive greater innovation 
than big businesses do.
    Through the Recovery Act, Congress has delivered important 
funding to small firms. Since then we have seen real progress. 
Over the last seven months, SBA has made $12 billion in loans. 
But as I said back in February, the Recovery Act was a critical 
first step, not a silver bullet. Today access to capital 
remains a serious challenge for small businesses.
    We need to be sure that small firms have all of the 
resources they need to grow and flourish because at the end of 
the day our recovery will hinge on job creation, the very thing 
that small businesses do best.
    Historically, small firms have created roughly 64 percent 
of all new jobs, but today a lack of capital is hindering their 
ability to put Americans back to work. According to a July 
survey by the Federal Reserve, 35 percent of banks have 
tightened lending to small firms.
    Meanwhile, 79 percent of entrepreneurs have seen their 
credit card lines cut dramatically. These are troubling 
declines not just for small businesses, but for our larger 
economy.
    The legislation we are considering today will help reverse 
this trend. It improves SBA financing options and, most 
importantly, creates or saves 1.33 million jobs per year. With 
unemployment was 9.8, we could really use those 1.33 million 
jobs. That is why this bill is such a critical piece of 
legislation.
    And I want to recognize Chairman Schrader for his 
leadership in moving it forward. I would also like to thank all 
of my colleagues who worked so hard to make this bill a 
success: Ranking Member Graves, Ms. Halvorson, Mr. Buchanan, 
Mr. Ellsworth, Mr. Luetkemeyer, Ms. Kirkpatrick, Ms. 
Dahlkemper, Mr. Nye, and Mr. Griffith.
    I now yield to Ranking Member Graves for his opening 
remarks.
    Mr. Graves. Good morning. Thank you, Madam Chairman, for 
holding this markup. I appreciate, very much appreciate, your 
leadership on this issue and commend you for working in a 
bipartisan manner on developing legislation that is going to 
provide changes to the Small Business Administration programs 
that are going to provide needed capital to small businesses.
    Testimony before this Committee shows that small businesses 
have been unable to obtain needed capital to maintain or expand 
their businesses. In our districts, business owners have noted 
that they have seen banks reduce their credit lines and demand 
excessive collateral to get a loan.
    The inability to obtain capital has a serious detrimental 
effect on the capacity of small businesses to grow their 
business and pull us out of this current recession.
    The Committee has worked hard to produce legislation with 
significant discussions between Democrat and Republican 
members. The bill before us today is a compilation of 
legislative initiatives drafted by members of both sides of the 
aisle. Their contributions cannot be understated, and I would 
especially like to thank Congressman Buchanan and Congressman 
Luetkemeyer for their input on this legislation.
    The bill before us today makes important changes to improve 
the efficiency and increase the transparency of the SBA's 
lending programs. These modifications are needed to insure that 
capital is made available to as many small businesses as 
possible in a timely manner because delay in the marketplace 
can result in lost opportunities for small businesses.
    In addition to creating improvements for the management of 
the SBA Capital Access Programs, the bill's primary focus is to 
provide vital capital to small businesses, including those in 
rural areas. The bill increases outreach efforts to rural 
lenders in the 7(a) loan program, modifying the areas in which 
the new market venture capital companies can operate and will 
provide greater investment opportunities for rural areas that 
have been bypassed by other venture capitalists.
    These are only two of the examples of the many improvements 
that this will increase access to capital by small business 
owners.
    Despite these significant improvements, there are still 
some unresolved concerns with the bill. While I strongly 
endorse the efforts for the SBA to find lenders to make loans, 
I am a little troubled that the SBA could still make a loan if 
no bank is willing to make such a loan. To me it suggests an 
underlying problem possibly with the loan package, and I do not 
think that the SBA should be making the loan.
    The disaster loan provisions included an authorization to 
make grants to small businesses rather than loans, and I 
recognize that FEMA provides grants to individuals, but not 
sufficient grant funds to small businesses, and I am not sure 
that we should change a loan program to a grant program, 
especially without any detailed findings that grants would help 
save businesses during recovery from a disaster that were not 
saved by loans.
    And finally, we must recognize the current fiscal 
constraints. The deficit is at an all time high, and Congress 
is considering a number of potentially expensive programs, and 
I am concerned about the potential overall cost of the bill.
    But those are my reservations on the bill before us, and 
given the importance of the bills to the potential prosperity 
of American small business economy, I support the bill being 
reported out of Committee, and I look forward to working with 
the Chairwoman to address these concerns as the legislative 
process moves forward.
    And again, I want to thank you for holding this markup, and 
I yield back the balance.
    [The prepared statement of Mr. Graves is included in the 
appendix.]
    Chairwoman Velazquez. Thank you, Mr. Graves.
    Are there any other members that wish to be recognized for 
the purpose of making opening remarks?
    Ms. Halvorson.
    Ms. Halvorson. Thank you, Chairwoman Velazquez and Ranking 
Member Graves, for holding this morning's Committee markup.
    The legislation that we are considering today will provide 
a much needed update to the SBA's Access to Capital Programs. 
All of us on this Committee have heard from small business 
owners in our districts that accessing capital continues to be 
a major challenge. So small businesses need capital to grow and 
create new jobs, but the credit crunch has made it exceedingly 
difficult for them to obtain loans. The SBA's Access to Capital 
Programs are supposed to be a resource for small business 
owners when they have trouble getting credit from traditional 
sources, and unfortunately, we have seen a recent decrease in 
the SBA's loan volume.
    In Fiscal Year 2009, SBA made around 35 percent fewer 7(a) 
loans than it did in the previous year. This needs to be turned 
around, and we need action now.
    The legislation we are marking up this morning, the Small 
Business Financing and Investment Act, will reauthorize and 
enhance the SBA's Access to Capital Program so that they can 
better serve the needs of our nation's small businesses. I 
commend the Chairman of the Finance and Tax Subcommittee, Mr. 
Schrader, for taking the lead on this legislation, and I am 
also pleased that it incorporates my bill, H.R. 3723, the Small 
Business Credit Expansion and Loan Market Stabilization Act. 
The language from my bill will improve the SBA's flagship 7(a) 
loan program. It extends the provisions in the Recovery Act 
that reduced borrower fees and increased the SBA loan guarantee 
to 90 percent.
    We also raised the loan limit to $3 million, and I look 
forward to working with the Chair and the Committee to evaluate 
further raising the limit to five million, which is what I have 
been hearing from the Committee and outside people that we need 
to do.
    We are also going to extend the ARC Loan Program, which was 
created by the ARRA to provide small business owners with 
interest free loans that are 100 percent guaranteed by SBA. The 
language from my bill will increase the maximum award from 
35,000 to 50,000.
    To increase lender participation in 7(a), the bill creates 
new rural and small lender outreach programs at the SBA.
    And finally, we are going to help veteran entrepreneurs by 
fully implementing the SBA's Increased Veteran Participation 
Loan Program.
    So I think the bill we have before us today is a good step 
in the right direction, and I urge members of this Committee to 
support it.
    Madam Chair, I yield back the balance of my time.
    Chairwoman Velazquez. Are there any other members who wish 
to be recognized?
    Mr. Schrader.
    Mr. Schrader. Thank you, Madam Chair.
    I would just like to thank everybody on the Committee and 
everyone who has come before our Committee and the testimony 
they have given to help us fine tune the SBA programs before us 
today. I particularly enjoyed working with the Ranking Member 
and my colleagues on the other side of the aisle to help reduce 
the cost of this bill, recognizing deficit in an issue, but 
still trying to make sure the lending markets fee up a little 
bit, expand some of our opportunities around the country to get 
these agencies, frankly, in a better competitive position, and 
then the next step will be to instill confidence in the banks.
    We are not adding a whole bunch of new regulations that 
would hamper their ability to get involved. No strings 
attached; these are just opportunities to get small business 
going again, and I really appreciate the opportunity to be part 
of this bill.
    Thank you, Madam Chair.
    Chairwoman Velazquez. Any other member that wishes?
    Mr. Ellsworth.
    Mr. Ellsworth. Madam Chair, in the interest of time, if I 
could just enter a statement for the record, I would appreciate 
it.
    Chairwoman Velazquez. Without objection, so ordered.
    Mr. Ellsworth. Thank you.
    Chairwoman Velazquez. Ms. Dahlkemper.
    Ms. Dahlkemper. Madam Chair, I would also, in the interest 
of time, ask that I have an opening statement that I would like 
to enter into the record.
    Chairwoman Velazquez. Without objection, so ordered.
    Mr. Griffith.
    Mr. Griffith. Madam Chair, I, too, would like to make an 
opening statement. I am late. Do we have time?
    Chairwoman Velazquez. Yes, we do.
    Mr. Griffith. We do? Well, thank you, Madam Chairwoman.
    In rural America, small businesses often serve as a local 
economic anchor. Not only do they create and support jobs, but 
they are important contributors to local charities and 
nonprofit groups. In small towns, business owners are often 
engaged in the civic process and serve as community leaders. In 
short, entrepreneurs are nothing short of the glue that holds 
rural communities together.
    For these reasons, small businesses play a critical role 
when communities recover from natural disasters. When tornados 
or hurricanes strike, many communities don't fully recover 
until local businesses reopen their doors. Once businesses get 
back to work, local commerce can resume. Citizens are able to 
find employment, and eventually life returns to normal.
    The Small Business Administration's Disaster Loan Program 
is an important lifeline for businesses that are struggling 
after natural disasters. Low interest loans provided through 
this program help firms rebuild if their facilities sustain 
physical damage. The program can also help small businesses 
survive the economic shocks that accompany disasters.
    Earlier this year, in April, thunderstorms and tornados 
ripped through north Alabama, my district. More than 100,000 
homes and businesses in our state lost power. The SBA's 
Disaster Loan Program is helping many businesses in the region 
get back on their feet. Already the agency has approved more 
than one million in disaster assistance loans for businesses. 
These funds are helping small firms recover from both the 
physical and economic damage caused by storms.
    While these programs are valuable, I am afraid they do not 
yet function at their highest potential. Earlier this year, the 
Government Accounting Office examined the SBA's Disaster 
Recovery Programs. Specifically, GAO looked at what SBA has 
done to improve these measures since Hurricane Katrina. In 
July, when the GAO testified before this Committee, they told 
us that the Small Business Administration is still unprepared 
to respond to a major disaster.
    This gives me reason for concern. As the old saying goes, 
hope for the best but prepare for the worst. From what the GAO 
is telling us, it looks like some in the SBA may be hoping for 
the best.
    The legislation we are considering today includes 
provisions I author to improve the SBA's disaster assistance 
initiatives. By improving how the SBA disburses assistance, the 
bill will speed help to all firms more quickly. The SBA also 
will be required to establish regional disaster working groups. 
This will insure the agency prepares for the most likely 
disaster scenarios in different parts of the country.
    Madam Chair, access to capital is always important for 
small businesses, but when disasters strike, finding an 
affordable loan can mean the difference between staying in 
business and going under. The legislation before us will help 
entrepreneurs find the capital they need in good times as well 
as bad.
    I urge the adoption of the bill and yield back the balance 
of my time.
    Chairwoman Velazquez. Are there any other members that wish 
to be recognized at this point?
    [No response.]
    Chairwoman Velazquez. We will now consider H.R. 3854, The 
Small Business Financing and Investment Act of 2009, introduced 
by Representative Schrader.
    [The Bill H.R. 3854 is included in the appendix.]
    Chairwoman Velazquez. This legislation is a comprehensive 
answer to small firms' capital needs. It carries them 
throughout the entire small business life cycle, from day one 
of the start-up stage to the point at which they can compete 
with the Fortune 500. For small firms just getting off the 
ground, Representative Ellsworth crafted important improvements 
to the Microloan Program. In the past, that initiative inspired 
growth in otherwise struggling communities.
    By reducing interest rates and providing more flexible 
credit terms, H.R. 3854 gives entrepreneurs greater control of 
their finances and empowers them to make new investments.
    Meanwhile, a move to pair traditional loans with technical 
training programs provides small firms with the information 
they need to be successful. At the same time, efforts to draw 
more lenders into the program will expand access to this vital 
source of funding.
    We often talk about the importance of welfare to work. 
Well, microloans put people to work through the power of 
entrepreneurship. If we are looking for policies that spur job 
growth, then this is the kind of program we should be 
supporting. Starting a new business is a resource intensive 
process, but entrepreneurs' capital needs do not begin and end 
with the first business plan. Rather, they continue throughout 
all phases of development. For that reason, this bill expands 
SBA's 504 Program delivering better financing options to middle 
market firms.
    To further bolster established companies, H.R. 3854 also 
extends successful Recovery Act measures, for example, fee 
exemptions on loan guarantees. In doing so, it encourages 
greater lending from banks. This is key because many banks are 
concerned that they do not have the capital to resume lending 
in earnest until the middle of 2010. But as any entrepreneur 
will tell you, small businesses cannot afford to wait that 
long. They need capital for things like stocking their shelves 
and financing investments today, not eight months from today.
    That is why Representative Halvorson contributed policies 
to streamline SBA's 7(a) program. Her contributions deliver 
better funding options to veteran entrepreneurs, the men and 
women who have served our country so well and who are now 
helping to drive our economy.
    Meanwhile we are improving 7(a) financing options and doing 
so in a way that mitigates risk to the taxpayer. I want to be 
clear. Taxpayer protections are a top priority in this bill. It 
ramps up safeguards in a number of ways, including actions 
recommended by Representative Buchanan, which allow CDCs to 
liquidate defaulted loans.
    While the SBA is a critical resource for small firms' 
capital needs, there are cases in which its traditional loans 
are not enough. For these instances, Congress created a 
portfolio of investment initiatives. Through the contributions 
of Representative Luetkemeyer, H.R. 3854 will enhance SBA's 
largest pool of equity capital, the Small Business Investment 
Company Program. It will do this by increasing the number and 
size of investments made. This increase could not come at a 
more critical time.
    In 2009, D.C. firms will invest ten to $15 billion less 
than they did in 2008. That is an alarming trend, one that if 
not reversed will significantly hamper our recovery. By 
encouraging greater participation among successful SBICs, this 
bill can breach the gap and get equity capital flowing to small 
businesses.
    Of all the contributions small firms make to our economy, 
innovation is one of the most important. That is why H.R. 3854 
targets promising start-ups in fields like renewable energy. 
Through provisions introduced by Representative Kirkpatrick, we 
are steering investments to firms who focus in that area. In 
order to fill the void left by the now defunct participating 
securities program, this bill creates a new pool of capital for 
early stage firms. That provision introduced by Representative 
Nye will increase investment in the kind of high growth start-
ups that create new jobs.
    It is important to know, like many of the measures in this 
bill, the early stage capital program is governed by critical 
taxpayer safeguards. For example, it requires investment 
companies to match grant requests with capital from non-federal 
resources. SBA will also conduct audits of participating 
companies to insure that grants are invested in a transparent 
fashion.
    Small businesses play a key role in all sectors of our 
economy, but they have a particularly strong track record in 
the tech industry. So I am pleased that this bill encourages 
small firms to invest in an innovative new product. By helping 
small medical practices afford health IT, it allows them to 
make yet another critical contribution to our economy, a 
streamlined health care system. At present only 13 percent of 
single doctor practices use HIT. This is because the technology 
is extremely costly. For your average three-doctor practice, 
implementation runs close to $100,000, a large sum for any 
small business.
    By helping small practices afford HIT, H.R. 3854 will 
encourage greater adoption and, in turn, reduce cost and 
minimize errors. This measure will not only improve the quality 
of our health care system, but will create jobs for 
entrepreneurs in the health IT and technology sector. It would 
not have come together without the work of Representative 
Dahlkemper, and I am grateful for her work in including this 
provision.
    H.R. 3854 insures small firms have the financing they need 
to not only make new investments, but to weather any economic 
storm. Importantly, it also accounts for entrepreneurs in the 
event of a natural disaster.
    To address shortcomings in SBA disaster loan programs, 
Representative Griffith introduced measures to establish 
regional working groups. Doing so will help SBA respond to the 
multitude of different challenges that could impact our 
country.
    H.R. 3854 also tailors assistance to fit the express needs 
of small firms following a disaster. When it comes to preparing 
for catastrophe, SBA's work is never done. This legislation 
will help the agency remain vigilant in protecting the small 
businesses that drive our economy. These are the businesses 
that given the opportunity will drive new growth for our 
economy and put Americans back to work.
    The fact that this bill has such broad support is testament 
to its importance. I am pleased to say that it is backed by a 
wide range of groups, almost close to 20. We have the National 
Restaurants Association, the American Society of Travel Agents, 
the International Franchise Association, Biotech, National 
Association of Credit Unions, the National Association of 
Investment Companies, the National Venture Capital Association, 
the American Dental Association, the American Institute of 
Architects, Air Conditioning Contractors of America, the 
Association of General Contractors of America, among other.
    This bill is about better choices for small businesses. It 
allows entrepreneurs to select the best possible funding 
options for their firms and will go a long way in empowering 
those businesses, but perhaps most importantly, it will help 
create and sustain 1.33 million jobs. I cannot imagine anyone 
who can argue with that number.
    H.R. 3854 is a bipartisan product, and I urge my colleagues 
to support its adoption.
    Are there any other members who wish to be recognized on 
H.R. 3854?
    [No response.]
    Chairwoman Velazquez. Well, the Committee now moves to 
consideration of H.R. 3854. The Clerk will report the title of 
the bill.
    The Clerk. To amend the Small Business Act and the Small 
Business Investment Act of 1958, to improve programs providing 
access to capital under such Acts and for other purposes.
    Chairwoman Velazquez. I ask unanimous consent that the bill 
in its entirety be open for amendment at this time. Does any 
member seek recognition for the purpose of offering an 
amendment?
    [No response.]
    Chairwoman Velazquez. Seeing no amendments, the question is 
on reporting H.R. 3854. All those in favor say aye.
    [Chorus of ayes.]
    Chairwoman Velazquez. Those opposed say no.
    [No response.]
    Chairwoman Velazquez. The ayes have it. The bill is adopted 
and reported.
    This concludes Committee business for today. I ask 
unanimous consent that the Committee is authorized to correct 
section numbers, punctuation, cross-references, and to make 
necessary technical and conforming corrections on the bill 
considered today.
    Without objection, so ordered.
    This markup is now adjourned.
    [Whereupon, at 10:40 a.m., the Committee was adjourned.]

         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
